Nos. 19-715, 19-760

IN THE

Supreme Court of the United States
_______________
DONALD J. TRUMP; THE TRUMP ORGANIZATION, INC.; TRUMP ORGANIZATION LLC; THE
TRUMP CORPORATION; DJT HOLDINGS LLC; THE DONALD J. TRUMP REVOCABLE
TRUST; AND TRUMP OLD POST OFFICE LLC,
Petitioners,
v.
MAZARS USA, LLP; COMMITTEE ON OVERSIGHT AND REFORM OF THE
U.S. HOUSE OF REPRESENTATIVES,
Respondents.
_______________
DONALD J. TRUMP; DONALD J. TRUMP, JR.; ERIC TRUMP; IVANKA TRUMP; DONALD J.
TRUMP REVOCABLE TRUST; TRUMP ORGANIZATION, INC.; TRUMP ORGANIZATION LLC;
DJT HOLDINGS LLC; DJT MANAGING MEMBER LLC; TRUMP ACQUISITION LLC; TRUMP
ACQUISITION, CORP.,
Petitioners,
v.
DEUTSCHE BANK AG; CAPITAL ONE FINANCIAL CORPORATION; COMMITTEE ON
FINANCIAL SERVICES OF THE UNITED STATES HOUSE OF REPRESENTATIVES;
PERMANENT SELECT COMMITTEE ON INTELLIGENCE OF THE UNITED STATES HOUSE OF
REPRESENTATIVES,
Respondents.
_______________
RESPONDENT COMMITTEES’ UNOPPOSED APPLICATION FOR LEAVE TO
EXCEED WORD LIMIT IN THEIR BRIEF ON THE MERITS

_______________

Lawrence S. Robbins
Roy T. Englert, Jr.
Alan D. Strasser
Jennifer S. Windom
D. Hunter Smith
Brandon L. Arnold
ROBBINS, RUSSELL, ENGLERT, ORSECK,
UNTEREINER & SAUBER LLP
2000 K Street NW, 4th Floor
Washington, D.C. 20006
(202) 775-4500
lrobbins@robbinsrussell.com

Douglas N. Letter
Counsel of Record
Todd B. Tatelman
Megan Barbero
Josephine Morse
Adam A. Grogg
Jonathan B. Schwartz
OFFICE OF GENERAL COUNSEL
U.S. HOUSE OF REPRESENTATIVES
219 Cannon House Building
Washington, D.C. 20515
(202) 225-9700
douglas.letter@mail.house.gov

Counsel for Respondent Committees

To the Honorable John G. Roberts, Jr., Chief Justice of the United States and
Circuit Justice for the United States Court of Appeals for the District of Columbia
Circuit:
For the reasons stated below, Respondents Committee on Oversight and
Reform, Committee on Financial Services, and Permanent Select Committee on
Intelligence of the U.S. House of Representatives respectfully request leave to file a
brief on the merits in excess of the word limit set forth in Supreme Court Rule
33.1(g)(vi), not to exceed 17,000 words.
1.

On December 13, 2019, this Court granted the petition for a writ of

certiorari in Donald J. Trump, et al., v. Mazars USA, LLP, et al. (No. 19-715). The
Court treated the application for stay in Donald J. Trump, et al. v. Deutsche Bank
AG, et al. (No. 19-760) as a certiorari petition, granted certiorari, and consolidated
the two cases.
2.

On January 7, 2020, Petitioners applied to file a consolidated brief on

the merits in excess of the word limits set forth in Rules 33.1(g)(v) and (vii).
Petitioners sought 19,000 words for their principal brief and 9,000 words for their
reply brief. The Committees agreed that consolidated briefing was appropriate but
took the position that Petitioners’ briefs should not exceed 15,000 and 7,000 words,
respectively. Respondents Mazars USA, LLP, Deutsche Bank AG, and Capital One
Financial Corporation took no position on the application.

1

3.

On January 13, 2020, Petitioners’ application was granted in part.

Petitioners were permitted to file a principal brief no longer than 17,000 words and
a reply brief no longer than 8,000 words.
4.

The Committees intend to file a single brief on the merits.

5.

The consolidated cases involve separate investigations by three

committees of the United States House of Representatives, each furthering distinct
legislative and oversight purposes. So that they may adequately present their cases
(and in light of the length of Petitioners’ briefs), the Committees respectfully
request leave to file a brief on the merits in excess of the 13,000-word limit imposed
by Rule 33.1(g)(vi), not to exceed 17,000 words, the same limit now applicable to
Petitioners’ opening brief.
6.

Counsel for the Committees has conferred with counsel for Petitioners,

who stated that Petitioners consent to this request. Respondent Deutsche Bank AG
has stated that it takes no position on this application. Respondents Mazars USA,
LLP and Capital One Financial Corporation have stated that they do not object.

2

Respectfully submitted,
Lawrence S. Robbins
Roy T. Englert, Jr.
Alan D. Strasser
Jennifer S. Windom
D. Hunter Smith
Brandon L. Arnold
ROBBINS, RUSSELL, ENGLERT, ORSECK,
UNTEREINER & SAUBER LLP
2000 K Street NW, 4th Floor
Washington, D.C. 20006
(202) 775-4500
lrobbins@robbinsrussell.com

Douglas N. Letter
Counsel of Record
Todd B. Tatelman
Megan Barbero
Josephine Morse
Adam A. Grogg
Jonathan B. Schwartz
OFFICE OF GENERAL COUNSEL
U.S. HOUSE OF REPRESENTATIVES
219 Cannon House Building
Washington, D.C. 20515
(202) 225-9700
douglas.letter@mail.house.gov

Counsel for Respondent Committees
January 29, 2020

3

